TjO'UV
In tfje Supreme Court oft()e XtntteS States
No.

Solon Phillips,
PETITIONER

~l
l

V.

MARYLAND BOARD OF LAW EXAMINERS, ET AL„
On Petition for a Writ of Certiorari to the
United States Fourth Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Solon Phillips, Esq.
Petitioner
Pro se
4801 Bartletts Vision Drive
Bowie, MD 20720
solonesa@gmail.com
(202) 329-1799

--sj

*»^.r

QUESTIONS PRESENTED
The overall purpose of the character and fitness test is to protect the public
from unscrupulous attorneys. The average age of newly admitted attorneys in
the United States is 26 years old. Because past behavior is a strong indicator of
future behavior, character committees investigate the past behavior of young
attorneys to determine the potential future behavior of these same attorneys.
The idea is that "good" young attorneys will continue to do good while "bad"
young attorneys will continue to do bad. So, a designated committee
investigates an attorney's past conduct to determine whether issuing a license to
practice law will be in the public's best interest.
This is not what happened with Solon Phillips.
Solon Phillips has lived for nearly half of a century. During this time,
there is no showing, no pattern, no history of unscrupulous or indiscreet
behavior. On the contrary, there is a showing that spans over 25 years of a
consistent pattern of selfless behavior geared towards serving the public.
There was over 2 5-character reference letters from attorneys, professors,
employers, a judge, and a forensic report that all described Solon as a man of
high integrity and exemplary character. When the Maryland Board of Law
Examiners found Solon to be too immorally unacceptable to be issued a
licensed to practice law, questions abounded. Before this Court now are
questions that only this Court can address:

I

(1) Is the Maryland character fitness test unconstitutionally vague
because it leaves the triers of fact free to decide, without any legally
fixed standards, what is and what is not morally acceptable in each
particular case?
(2) The Supreme Court has held that when a bar applicant is denied
admission and there is no basis for finding the applicant fails to meet
the qualifications required to practice law that applicant is denied due
process of law. The Board of Law Examiners reported that Solon
lacked the requisite moral character for admission, but the record is
void of any behavior that would lead a reasonable person to reach this
conclusion. Did Maryland violate Solon’s due process of law by
denying him admission when there was no rational basis for the
denial?
(3) The Constitution requires a State to afford all individuals an
opportunity to be heard on matters impacting life, liberty, and
property in order to fulfill the promise of the Due Process Clause.
Maryland denied Solon the privilege to practice law on specific issues
which it never afforded Solon an opportunity to address. Did
Maryland violate Solon’s due process rights?
(4) The Supreme Court has held that any State act permitting a delay
without limit is unconstitutional. The Maryland State Board of Law
Examiners held Solon’s bar application open for nearly four years

II

without any explanation for the delay. Was this unexplained delay
unconstitutional?

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED

I

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

.V

PETITION FOR WRIT

1

PARTIES TO THE PROCEEDING

1

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS INVOLVED

2

REASON FOR GRANTING PETITION

4

STATEMENT OF THE CASE

4

FACTUAL BACKGROUND

6

ARGUMENT

17

I.
II.
III.
IV.
V.

Maryland’s Character Fitness Process Violated Solon’s
Civil Rights........................................................................

17

Maryland’s Character Fitness Test is Unconstitutionally
Vague.....................................................................................

20

The Board of Law Examiners Violated Solon’s Due
Process Rights by Denying Him an Opportunity to be Heard

25

The Board Violated Solon’s Due Process Rights
By Sitting on his Application for Nearly Four Years

26

CONCLUSION

,27

IV

TABLE OF AUTHORITIES
CASES
Adickes v. S.H. Kress & Co., 398 U.S. 144, 169-70 (1970)

18

Allan S., 282 Md. 683, 691, 387 A.2d 271,275 (1978)

.21

Baird v. State Bar ofAriz., 401 U.S. 1, 7 (1971)

17

Beckles v. United States, 137 S. Ct. 887, 894 (2017)

21

Boddie v. Connecticut, 401 U.S. 371, 379 (1971)

25

In re Otion Gjini, No. 32 (May 10, 2016)

23

Konigsberg v. California, 353 U.S. 252, 263 (1957)

4

Riley v. Nat’l Fed. of the Blind, 487 U.S. 781, 783 (1988)

26

STATUTES
Civil Rights Act of 1871, 42 U.S.C. § 1983

V

17

PETITION FOR WRIT OF CERTIORARI
Solon Phillips respectfully petitions for a writ of certiorari to review the
decision of the Maryland Court of Appeals denying Solon Phillips the right or
privilege to practice law in Maryland.
PARTIES TO THE PROCEEDING
Petitioner (plaintiff-appellant below) is Solon Phillips, a 47-year-old, African
American man, licensed to practice law in Alabama, the District of Columbia, and
Washington State.
Respondents (defendants-appellees below) are the Maryland Board of Law
Examiners; Jonathan Azrael, in his official capacity as Chair; John Mudd, in his
capacity as a member; David Ralph, in his official capacity as a member; and
Matthew Mills, in his official capacity as a member.
OPINIONS BELOW
•

Solon had a 15-minute hearing on why the appellate court should agree with
the Character Committee’s recommendation for admission and decline the
Board of Law Examiner’s recommendation denying admission. The
transcript to the Nov. 16, 2017 Hearing is reproduced at Pet. App. 1 (Nov. 16,
2017 Transcript).

• The 2017 Opinion of the Court of Appeals is reproduced at Pet. App. 2. (Case
No. Misc. No. 17, Nov. 16, 2017).
•

Solon filed for declaratory relief in the District Court but was denied for lack
of subject matter jurisdiction. Opinion is reproduced at Pet. App. 3 (Phillips
v. Maryland Bd. of Law Examiners, et al., ADC-19-2427, Dec. 19, 2019).
1

• The Fourth Circuit Court of Appeals agreed with the District Court on four
counts but reversed on two counts. Opinion is reproduced at Pet. App. 4
(Phillips v. Maryland Bd. of Law Examiners, et al., No. 20-1057, U.S. Court of
Appeals for the Fourth Circuit. Judgment entered July 17, 2020).
JURISDICTION
The Fourth Circuit declined to declare whether Solon’s constitutional rights
were violated. This Court therefore has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
•

U.S. Const, amend. XIV § 1
Section one of the Fourteenth Amendment provides:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

•

MD Code, Bus. Occ. & Pro., § 10-207(b)
Section b of the Maryland Character and Reputation statute provides:
An applicant shall be of good character and reputation.

•

MD Code, Bus. Occ. & Pro., § 10-211
The Maryland Order of Admission statute provides:

2

If an applicant meets the requirements of this Part II of this subtitle, the
Court of Appeals shall pass an order of admission of the applicant to the
Bar.
• MD Rule 19-203(b) Character Review
Section (b) of this Maryland Rule provides:
If the Board concludes after review of the Character Committee’s report
and the transcript that there may be grounds for recommending denial of
the application, it shall promptly afford the applicant the opportunity for a
hearing on the record made before the Committee. If the recommendation
of the Board differs from the recommendation of the Character Committee,
the Board shall prepare a report and recommendation setting forth
findings of fact on which the recommendation is based and a statement
supporting the conclusion and shall transmit a copy of its report and
recommendation to the applicant and the Committee.
• MD Rule 19-203(d) Burden of Proof
Section (d) of the Maryland Rule provides:
The applicant bears the burden of proving to the Character Committee,
the Board, and the Court the applicant’s good moral character and fitness
for the practice of law. Failure or refusal to answer fully and candidly any
question in the application or any relevant question asked by a member of
the Character Committee, the Board, or the Court is sufficient cause for a
finding that the applicant has not met this burden.

3

REASONS FOR GRANTING PETITION
It’s time for the character fitness test to change. States are using it to deny
good, moral people from becoming attorneys while at the same time using it to
admit bad, immoral people. This Court can now change this.
This Court addressed the moral character requirement of State Bars in 1957,
finding that it is a “vague requirement, which can be easily adapted to fit personal
views and predilections.” Konigsberg v. California, 353 U.S. 252, 263 (1957). This
Court went on to say that the moral character requirement “can be a dangerous
instrument for arbitrary and discriminatory denial of the right to practice law.” Id.
This Court in Konigsberg stopped short of addressing the issue of the
constitutionality of the character determining process. This Court should now grant
this petition for three reasons. First, it would have the opportunity to provide all
States with constitutional direction when fashioning character fitness policies and
procedures. Second, granting this petition will potentially save attorneys from
being wrongfully denied licensure. Lastly, this Court should grant the petition
because by granting the petition and redefining the character fitness provision, the
outcome will reasonably redefine the public perception of attorneys throughout the
country by allowing States to more accurately weed out corrupt attorneys.
STATEMENT OF THE CASE
Solon Phillips graduated from the Washington College of Law in 2008. He
began the application process to receive his license to practice law in Maryland in
2007. The 2007 Character Committee member interviewed him and recommended
that he be admitted into the Maryland Bar. Solon did not complete his application
4

until February 2011, after he graduated from an M.B.A. program and subsequently
passed the Maryland bar exam. After graduating from law school, passing the bar
exam, and receiving a favorable recommendation, Solon was all set to attend the
induction ceremony and to be admitted as a practicing attorney in the state of
Maryland.
Unfortunately, this did not happen. At first, Solon’s application was lost.
Then, it was later found, but the process was put on hold. After nearly four years of
waiting, withdrawing his application, submitting a new application, retaking and
passing the Maryland Bar exam for a second time, being interviewed by a Character
Committee member for a second time, and being recommended for admission for the
second time, Solon was finally told that he lacked the requisite character for
admission into the Maryland Bar and was denied a license.
Not accepting this painful setback and determined to practice in Maryland,
Solon took the Bar exam for a third time, this time taking and passing the
Multistate Bar Exam. He scored high enough to be accepted into three (soon-to-be
four) other State jurisdictions.
In the midst of this effort, Solon discovered that a sitting judge wrote a letter
to Defendants advising them to not admit him into the Bar. Defendants issued a
letter to the Court of Appeals recommending Solon not be admitted into the
Maryland Bar. Defendants held a hearing that was for show only because the
hearing did not offer Solon an opportunity to address any of the issues it raised in
its letter to the Court. The Court then held a hearing that did not allow Solon to

5

address any of the issues it used to ultimately deny him admission into the
Maryland Bar. Upon discovering the facts behind Defendants’ refusal to
recommend licensing and his ultimate denial, Solon filed suit against Defendants.
Maryland’s character fitness process is unconstitutional and must be
changed. The future of prospective lawyers depends on the change. Solon’s own
future admission into the Maryland Bar depends on the change. This Court has the
authority to usher in the historical change of defining the legal process by which a
State may determine character and fitness.
FACTUAL BACKGROUND
Early Adult Life
Plaintiff Solon Phillips has always demonstrated a proclivity to act on his
moral beliefs, which are rooted in his Christian faith. At age 20, he chose to
withdraw from his pre-medicine studies at Oakwood College and marry his
pregnant girlfriend because he believed that to be the morally right thing to do. At
age 21, he became the youngest foster parent in Prince George’s County, a county in
Maryland, and was commended and recognized for his outstanding service to
children in foster care because he believed he could help young people in need. At
age 22, he was awarded an Outstanding Young Men of America award for achieving
a 3.81 GPA as a pre-medicine student while volunteering his time in a community
center in Takoma Park, Maryland, which he says is a testament to his faith. At 23,
he became a member of Men of Impact, a church group of men who were committed
to mentoring young people in Prince George’s County.

6

At age 29, Solon was awarded primary custody of his two children. His then
wife informed him that she felt she had married too young, that she had children
too young, and that it would be better for the family for her to leave.
At age 30, Solon was accepted into American University Washington College
of Law and began his first year in law school in August of that same year as an
evening, part-time student while being a full-time father.
From an early age, Solon has actively displayed a fiduciary duty to society,
living by the creed of service to God and man. From the time he was 20 years old
until the present, he has served as a preschool Bible teacher, a Bible teacher for
teens, a Bible teacher to adults, a Men’s Ministry leader, a community basketball
coach, a religious liberty leader, a deacon, legal ethics instructor, a homeless
ministry member, a prison ministry member, a Pathfinder leader, an author of
Christian publications, and a recipient of the Men of Honor award for outstanding
work in the Washington, D.C. Metro area.
2004 Divorce Proceeding
Approximately seven months after his wife moved out of the marital home,
Solon asked her for financial assistance in raising their two children, Adonis and
Athena. His ex-wife declined to offer financial assistance and insisted that the
children move in with her.
Solon declined this offer on the basis that the children had not seen their
mother in nearly a year and to just change their routine now simply because he

7

asked for child support was not in the best interest of the children. Even still, Solon
waited on his wife to move back home and be a family.
Upon discovering that his ex-wife had a live-in boyfriend, he asked her if she
would ever be coming home. She said, “No” and advised him to file for divorce. He
then filed for divorce on grounds of adultery. Solon vowed to continue to be the best
father he could be to his two children, raising them to adhere to the same Christian
beliefs.
Judge Toni Clark’s 2007 Letter to the Board
Judge Toni Clark was the judge assigned to Solon’s 2004 divorce proceeding.
At the onset, Judge Clark was noticeably biased against Solon. For example, she
denied his complaint for divorce on the ground of adultery for “condonation,”
holding that because he openly stated in court that he still loved his wife this meant
he forgave her for her past and present and ongoing adultery. Another example of
the unfair treatment towards Solon concerned child support. Judge Clark, although
she awarded him primary residential custody, awarded him only $33/month in child
support, ruling that he will be an attorney one day and could therefore financially
rehabilitate himself.
An attorney, Paul Eason, would later file for a modification for child support
and was able to secure the correct amount for Solon. The unfair treatment
continued over the years and finally escalated to Judge Clark issuing an order for
the two parties to return to court in three months, February 2009, and, if upon

8

Solon’s ex-wife word that Solon violated the order by not delivering the children to
her on time, she would order him to weekend incarcerations.
Because of this, Solon filed a Motion to Recuse Judge Toni Clark. In this
motion, he detailed how Judge Clark had unfairly treated him over the years and
stated that he would undoubtedly be incarcerated if his freedom was left to his exwife’s word. He hand-delivered this Motion to Recuse to the Chief Judge of Prince
George’s County Circuit Court.
A few months later, in November 2008, Judge Clark recanted her own order
and closed the case.
Applying to the Maryland Bar
Solon first applied to the Maryland Bar in 2007, a year before graduating
from American University Washington College of Law (WCL). He was interviewed
by a member of the Character Committee in 2007 and was given a favorable
recommendation that same year.
Upon graduating from WCL, Solon enrolled back in school to obtain his
master’s in business administration. After graduating from the master’s program
in late 2010, Solon took and passed the Maryland Bar exam in February 2011. The
ceremony for admission into the Bar was scheduled for June of that year, but due to
not fault on Solon’s part, Solon was not given the opportunity to participate.
Solon phoned the admission’s office to inquire about his ceremony tickets and
was told that his application was lost. He was told that he would be admitted in the

9

fall ceremony in August 2011. August 2011 came but Solon still did not receive any
ceremony tickets or any information about his admission into the Maryland Bar.
In late September 2011, Solon received notification from the Character
Committee that it would be holding a hearing February 2012 to discuss allegations
made in a letter received from Judge Toni Clark. The allegations were later found
to be unfounded as a fellow sitting judge attended Solon’s hearing and testified
under oath that Judge Clark was in fact biased towards Solon. Judge Clark’s letter,
however, strongly suggested to the Board that they not admit Solon into the Bar.
For nearly four years after the February 2012 hearing, the Board placed
Solon’s application on hold. Solon made several inquiries over the years as to the
status of his application, but each time was told that no decision had been made.
Finally, Solon gave the Board an ultimatum—“by this Friday, a decision needs to be
made one way or another.” That Friday, Solon received a letter recommending that
he be denied admission into the Maryland Bar.
Solon Withdraws His 2007 Bar Application
In 2015, Solon joined an online support group for couples experiencing
divorce. While in this group, a woman solicited members in the group for assistance
to stop her ex-husband’s new wife from harassing her. The woman asked Solon to
send a cease-and-desist letter to the new wife asking her to stop the harassment.
Solon drafted a letter and signed his father’s name to the letter because his father,
Dalton Phillips, was an attorney. The new wife complained to the Maryland Bar
about the letter, asking why a Maryland attorney would contact her, a resident of

10

Indiana. The Bar contacted Mr. Phillips about the letter. During an interview with
the Bar’s grievance attorney, Mr. Phillips took offense to a line of questioning, and
the issue ballooned with Maryland eventually going after his license.
While Solon awaited the outcome of his father’s disciplinary actions, he
withdrew his application for admission. Solon disclosed to the Board all of his
involvement with his father’s case and his reason for withdrawing his application.
The grievance attorney characterized Solon’s signing for his father as a violation of
the code of conduct governing attorneys. It was determined that Solon engaged in
the unauthorized practice of law by signing Dalton Phillips’s name. Mr. Phillips
was later disbarred for a variety of violations, including the unauthorized practice
of law.
Solon Retakes Maryland Bar Exam and Reapplies for Licensing
After the matters involving his father were completed, Solon in August 2016
submitted another application for admission into the Maryland Bar. In February
2017, Solon sat for the Maryland Bar exam for a second time and passed. A few
months later, Solon discovered he passed the bar exam, and, feeling good about
himself, decided to take another bar exam—the Florida Bar exam. During the
second week of May 2017, Solon mailed off his initial Florida Bar application. He
did not continue with the Florida application, however, and later withdrew this
application.
In May 2017, Solon had his character interview with a member of the
Maryland Bar’s Character Committee, Ms. Deborah Johnson. Solon met with Ms.

11

Johnson for over an hour and disclosed that he had applied to the Florida Bar and
his involvement with his father’s disbarment. At the end of the interview, Ms.
Johnson commended Solon on his candor and all he had done in his community and
church, but especially for raising his two children in the manner in which he had
raised them. As he walked out, she smiled at Solon and said, “You’re going to be a
great lawyer.” Solon left the interview feeling confident and grateful that after
nearly nine years after graduation he was finally about to be a licensed attorney.
Board Calls for a Hearing to be Held in July 2017
In June 2017, a few weeks after his character interview with Ms. Johnson,
Solon received notification from the Board of Law Examiners that the Board would
be hold a hearing. It is important to note that the Board did not provide Solon with
a copy of Ms. Johnson’s character report before this hearing despite the Maryland
rule mandating this disclosure. The notification of a hearing came as a surprise
considering the fact that Solon believed that his character interview went extremely
well. Not knowing what was in the character report, Solon did not know what Ms.
Johnson had reported to the Board that would require a hearing.
In this June 2017 Notice of Hearing letter to Solon, the Board stated it
wanted to discuss three matters: (1) the facts surrounding Solon’s engaging in the
unauthorized practice of law, (2) the facts surrounding Solon’s failure to disclose in
his application that he committed the unauthorized practice of law and contributed
to the disbarment of Dalton Phillips, and (3) whether the matters identified above

12

reflected a cumulative pattern that suggests a pattern of a lack of candor and
failure to abide by the law.
Solon retained Paul Sandler to represent him at the coming hearing. As the
third ranked attorney in Maryland, Mr. Sandler thoroughly prepared for the July
2017 Hearing before the Board based on the letter Solon received from the Board.
The letter indicated that the Board wanted to discuss Solon’s failure to disclose his
involvement with Dalton Phillips’s disbarment in his 2016 Bar application. So Mr.
Sandler prepared to show that Solon did in fact disclose his father’s involvement in
his Bar application. In a separate written statement that was attached to the last
page of Solon’s 2016 Bar application, Solon disclosed and explained his involvement
with his father’s disbarment. Mr. Sandler prepared to prove this fact to show that
Solon did disclose his involvement in his 2016 Bar application. Mr. Sandler also
prepared to demonstrate how Solon had rehabilitated himself by passing the
MPRE, writing articles on professional conduct, and securing himself, Paul Sandler,
as a mentor to guide him as a new attorney.
What Mr. Sandler did not prepare for was what the Board would later give as
the reason for recommending that Solon be denied admission into the Maryland
Bar, specifically, that Solon failed to disclose this same information during his
character interview. Again, the Board violated the Maryland rules by withholding
Ms. Johnson’s character report. The Board knew that Ms. Johnson had
recommended admission for Solon. They knew that Ms. Johnson reported that
Solon disclosed “at length” his involvement with his father’s disbarment. Yet, they

13

withheld this information and later stated that it appeared that Solon did not
disclose his father’s involvement during his character interview. Mr. Sandler did
not know this and did not prepare to address this during the July 2017 hearing.
The Board Issues a Report Recommending Denial
In October 2017, the Board’s final recommendation was to deny Solon
admission into the Maryland Bar because, “upon reviewing the Committee’s report
and recommendation, it appears that the events related to the applicant’s
unauthorized practice of law and his prominent role in his father’s disbarment may
not have been sufficiently explored.” (emphasis added). Specifically, the Board was
obliquely concluding that Solon had not discussed this issue sufficiently with the
Character Committee member, Ms. Johnson, this despite Ms. Johnson stating in
her report that Solon discussed this same information “at length” with her.
Deborah Johnson Unexpectedly Passes Away
Because Solon had received a favorable recommendation from the Character
Committee and an unfavorable recommendation from the Defendants, by Maryland
Rule, the Court of Appeals issued a hearing notice to Solon. The single issue for the
hearing was: Why should the Court accept the Character Committee’s favorable
recommendation over the Board’s unfavorable recommendation.
To Solon, addressing this issue was simple. The Board erroneously believed
that Solon did not disclose all matters with the Character Committee. Had the
Board received this information, they too would have had the same recommendation
as the Character Committee because no other issues were addressed at the
Hearing.
14

Solon spoke with Ms. Johnson by email and by phone about the Board’s
recommendation. She was shocked to learn that the Board had offered such a
recommendation and for the reason stated. Ms. Johnson asked that Solon email her
a copy of their report. Solon did as he was asked. Solon later emailed Ms. Johnson
asking for her to provide a letter stating that he had disclosed all matters in
question with her. He would use this at a later hearing as proof that he disclosed
the very information he was being accused of not disclosing. Unfortunately, Ms.
Johnson passed away the very same day Solon emailed the letter.
November 16, 2017 Hearing Before Court of Appeals
On November 16, 2017, Solon had a 15-minute hearing before the Maryland
Court of Appeals. The notice from the Court of Appeals stated that the hearing
would address why the Court should decide with the Character Committee and not
the Board. Solon prepared to address this issue.. During the 15-minute hearing, a
few questions were asked about Solon’s past, his involvement with this father’s
disbarment, and nothing else. Solon walked away from the hearing believing that
he would be granted a license to practice law in Maryland.
Order Results Based on Post-Hearing Issues
Two weeks after the November hearing, Solon had an interview for a position
in which the employer requested the employee to have a juris doctorate degree.
Solon applied using his Indeed resume. A day before the interview, the employer
requested another copy of Solon’s resume.
In the interview, the interviewer asked Solon if he was licensed to practice
law. Solon answered that he was not licensed and explained that his license status
15

was pending in Maryland. The interviewer stated that this position required a law
license, not just a degree. Solon apologized for the misunderstanding and the
interview ended.
The interviewer later mailed the Maryland Board of Law Examiners a
statement explaining that Solon applied for a position that required a law license
when in fact he did not have a law license. The Board did not follow up with Solon
to ask for clarification on this incident, but rather forwarded the letter to the Court
as further evidence of immoral behavior. The Court ultimately denied Solon
admission into the Maryland Bar for lack of candor based on everything presented
by the Board. In its published opinion, the Court stated that Solon did not disclose
his father’s involvement, that he applied for position requiring a license, and that
he has an email address, solonesq@gmail.com, which suggests he is holding himself
out as a licensed attorney. Solon was not given an opportunity to address any of
these accusations.
Post Maryland’s Denial
After Maryland issued its Order, Solon registered and sat to take the
Uniform Bar Exam (UBE) in the District of Columbia. Solon passed the UBE and
applied for a law license in the District, Alabama, Washington, Montana, and New
York. The District, Alabama, and Washington State conducted thorough
investigations, offered Solon an opportunity to be heard on the issues Maryland had
not offered, and in the end found Solon to possess the requisite character to practice
law. Solon now holds a license to practice law in the District, Alabama, and

16

Washington State. New York, hard hit by COVID-19, is still reviewing his
application. Unlike the other States, Montana did not offer Solon an opportunity to
be heard on these issues, but instead, chose to deny Solon solely based on
Maryland’s denial. Montana’s denial is currently being challenged.
ARGUMENT
I.

Maryland’s Character Fitness Process Violated Solon’s Civil
Rights.
Defendants in their capacity as the State Bar of Maryland have deprived

Solon of his civil rights by their capricious application of the character fitness
process. “Every person who, under color of any statute, ordinance, regulation,
custom, or usage of any State...subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured by the Constitution and laws, shall be
liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress.” Civil Rights Act of 1871, 42 U.S.C. § 1983. The practice of
law is a matter of right for one who is qualified by his learning and his moral
character. Baird v. State Bar of Ariz., 401 U.S. 1, 7 (1971). Whenever a State
official or agent causes a United States citizen to be denied a right or a privilege for
an irrational basis that individual’s civil rights are violated. Adickes v. S.H. Kress
& Co., 398 U.S. 144,169-70 (1970).
Defendants caused Solon’s right and privilege to practice law in Maryland to
be denied by issuing an unfavorable recommendation for “lack of candor” and
“failing to disclose” when the undisputed record showed candor and a history of
17

disclosure. The character committee’s report was given to the Board in June 2,
2017. In that same month, the Board issued a notice to Solon calling for a hearing
to discuss (1) the facts surrounding “your engaging in the unauthorized practice of
law, (2) the facts surrounding “your failure to disclose that you committed the
unauthorized practice of law and contributed to the disbarment of Dalton Phillips,
and (3) whether the matters identified above reflected a cumulative pattern that
suggests a pattern of a lack of candor and failure to abide by the law.
At the hearing, Solon’s attorney, Paul Sandler, thoroughly prepared to
addresses these issues, showing (1) that Solon did not know that his actions
amounted to the unauthorized practice of law and has since this incident,
rehabilitated himself by enrolling in ethics courses, taking and passing the
professional responsibility exam, and soliciting the services of a mentor, his
attorney, Paul Sandler, on these issues; (2) that Solon did in fact disclose the facts
surrounding this incident in his 2016 Maryland Bar application, but in a separate
sheet of paper attached to the back of his application; and (3) that there is no record
of him ever having failed to abide by the law or disclose necessary information.
In October 2017, Defendants published a recommendation stating that “there
was no indication the Applicant had apprised the Character Committee of the
February 22, 2017 Court of Appeals opinion.” The Board further published that, “it
appears that the events related to the applicant’s unauthorized practice of law and
his prominent role in his father’s disbarment may not have been sufficiently
explored.”

18

These statements are false statements issued by the Board. In the Character
Committee’s report, delivered to the Board on June 2, 2017, Ms. Johnson writes
that Solon’s involvement with his father’s disbarment was discussed “at length.”
The Board was in possession of this report on June 2, requested a hearing on June
16, and held a hearing on July 15, and at no time did any member of the Board ask
Solon, Solon’s attorney, or the Character Committee member who interviewed
Solon, whether the events they claimed “appeared to have been sufficiently
explored” were sufficiently explored. Because the clear facts show that Solon did
disclose information to the Character Committee, the Board’s reason for the denial
is irrational, baseless, and flat out untrue.
The Board also accused Solon of failing to disclose his involvement with this
father’s disbarment to the Board. This is also is untrue.
The disbarment came about because Solon cut-and-pasted a cease-and-desist
letter on a 2007 letter head, signed his father’s name to the letter, and then mailed
the letter in May 2015 to a lady in Indiana he had never met. This initiated an
investigation into his father by the Attorney Grievance Committee in June 2015.
Solon did not learn that he was a party to this suit against his father until
January 2017. As soon as he received the subpoena from Lydia Lawless, the
attorney representing the Attorney Grievance Committee, he notified his then
attorney, Norman Smith, who in turn, notified the Board.
Since counsel represented Solon in a matter before the Board, his duty to
disclose was directed to his attorney. Indeed, the Board itself made it quite clear to

19

Solon that his attorney should be the only person contacting it. In 2013, while
being represented by his attorney Mark Foley, Solon sent a letter directly to the
Chair of the Character Committee inquiring about the delay on his application. For
this, he was admonished stating that he was not to communicate directly with the
Board since he was represented by counsel.
The clear fact is Solon promptly disclosed his involvement with his father’s
disbarment through his attorney in January 2017, and then again in May 2017 to
the Character Committee.
Defendants’ irrational and baseless finding resulting in Solon being denied
the right to practice law in Maryland is a violation of Civil Rights Act of 1871, 42
U.S.C. § 1983. As the fitness test stands now, the Board can deny any future
applicant the right to practice law in violation of that applicant’s civil rights.
II.

Maryland’s Character Fitness Test is unconstitutionally vague
because it invites arbitrary enforcement by allowing the Board to
decide who is admitted and who is not admitted without any
legally fixed standard.
Maryland can violate any bar applicant’s civil rights because its Character

Fitness Test is unconstitutionally vague. “An unconstitutionally vague law invites
arbitrary enforcement in this sense if it leaves triers of fact free to decide, without
any legally fixed standards, what is prohibited and what is not in each particular
case.” Beckles v. United States, 137 S. Ct. 887, 894 (2017).
At first blush, Maryland’s fitness test could appear to be not arbitrary.
Although it has no ‘litmus test” for moral character or fitness for the practice of law,
Maryland has enunciated four factors that predominately suggest moral fitness: (1)
20

financial responsibility, (2) candid truthfulness, (3) lack of criminal activity, and (4)
the strictest observance of fiduciary responsibility. Allan S., 282 Md. 683, 691, 387
A.2d 271, 275 (1978). Based on Maryland law, an individual who proves that he is
financially responsible, candid and truthful, has not engaged in criminal activity,
and has observed the strictest of fiduciary responsibility should be admitted into the
Maryland Bar.
But this is not the case. In Solon’s case, the Board of Law Examiners showed
just how arbitrary its fitness test. When it denied his application, the Board clearly
did not use its own standard in testing Solon’s character because the facts show
that he passed the test and yet was still found to be immoral.
Financially Responsible.
The undisputed fact is Solon has financed two children through sixteen years
of private education and college, he has purchased a home for these children, he has
purchased cars for himself and members of his church, and he has consistently
maintained a “good” credit report for over 22 years. He has thoroughly proven this
first factor and this is not disputed.
Candid and Truthful.
The undisputed fact is Solon, through the span of eight years, supplemented
his application to disclose to the Board all of his activities giving rise to disclosure.
The character committee member who interviewed him reported to the Board that
Solon disclosed “at length” all relevant information to her during the character
interview. There is no showing that Solon displayed a proclivity to withhold or lack

21

candor. He has thoroughly proven this second factor, despite the Board’ s wan
attempts to dispute it.
No Criminal Activity.
Solon is 46 years old (he will be 47 in January 2021). In 46 years, the record
is absolutely void of any criminal convictions. He has never been arrested, He has
never been convicted of a crime. The only time he has been to prison is when he has
gone to minister to inmates on a regular basis. Solon has thoroughly met this factor
and this is undisputed.
Strict Fiduciary Responsibility.
As a father, a son, a brother, a coaeh; a mentor, a community worker, a
church member, his engagement with the members of his church and community,
Solon’s life convincingly proves that he has observed the strictest of fiduciary
responsibility. Solon has actively proven a commitment to the well-being of others
and has received awards for his fiduciary responsibilities, Solon has thoroughly
met this factor and this is undisputed.
Despite the fact that Solon met all the factors outlined in Maryland’s rules
for determining character fitness, he was still denied admission into the Maryland
Bar. This shows that the character committee process is so vague and arbitrary
and so chaotic that good, moral candidates can be denied admission while bad,
immoral candidates can be granted admission.
A simple social media search into some of the Maryland attorneys who this
Board has found to be of “good moral character” reveals that the moral fitness

22

standard is vague and arbitrary and chaotic. This Board has issued favorable
recommendations for applicants who were bigots, cheating spouses, foul-mouthed
men and women, drunkards, and liars, and who blatantly care more about their
pockets than they do about the members of their own community. See, e.g., In re
Otion Gjini, No. 32 (May 10, 2016). These are attributes that society deems as
immoral.
Meanwhile, this same Board has issued an unfavorable recommendation for
Solon who has no record of bigotry, no record of cheating, no record of drug or
alcohol use, and no record of excessive greed and selfishness, and has a long­
standing record spanning over 20 years of displaying morally what society defines
as good, sound moral behavior. The vagueness of the good moral character
standard in Maryland’s fitness test leaves an applicant clueless as to what is
prohibited and what is not. As the process stands, Board members with no clear
understanding of morality can subjectively apply the fitness test to intentionally
deny an applicant’s admission based on any arbitrary definition of candor. Because
Board members are not vetted and are not accountable for their actions, the Board
has free reign to discriminate against, either intentionally or unintentionally, good,
moral applicants who desire admission into the Maryland Bar.
Currently, the Board is under the fallacy that disclosing information equals
good moral character and failing, even forgetting to disclose means immoral or poor
character. This reasoning opens the door to discriminatory admissions. An
applicant can inadvertently, mistakenly, unintentionally, or ignorantly leave off the

23

fact that he worked for McDonald’s for a month during summer vacation and be
denied admission, while at the same time, an applicant who is a racist, a selfcentered bigot, and a thief who is yet to be caught can disclose all his employment
and be admitted to practice law.
This is irrational reasoning resulting in arbitrary and chaotic admissions.
Having this arbitrary and chaotic system in place creates a double negative impact
on society. First, morally sound applicants are being denied admission based on the
erroneous idea that they are immoral, thus damaging the applicant and depriving
society of good, moral lawyers. Second, immorally sound applicants are being
admitted based on the same erroneous idea that they are moral, thus exposing
society to immoral lawyers, hence the continued negative stigmatism associated
with lawyers.
Maryland can correct this arbitrary outcome by making one simple change to
its procedures. Because attorneys have a longstanding reputation in the
community for being immoral, it only makes sense (1) that the Board responsible for
deciphering good moral character consist of members of society who are familiar
with good moral character: clergymen, sociologists, judges, and (2) that the Board
apply a more objective, clearly defined character test. As of today, the test in
Maryland is unconstitutionally vague and arbitrary.
III.

The Board of Law Examiners violated Solon’s Due Process rights
by denying him an opportunity to be heard on issues it used to
find him unfit to practice law.

It is axiomatic that “a State must afford to all individuals a meaningful
opportunity to be heard if it is to fulfill the promise of the Due Process Clause.”
24

Boddie v. Connecticut, 401 U.S. 371, 379 (1971). So, when Maryland’s Board of Law
Examiners issued its report and the Court of Appeals issued its opinions based on
issues and findings that Solon was never given an opportunity to address, his Due
Process Clause rights were brutally violated.
The Constitution requires an opportunity be granted at a meaningful time
and in a meaningful manner for a hearing appropriate to the nature of the
situation. Id. at 378. In Solon’s situation, he was not afforded an opportunity to be
heard on the issue concerning the North American Securities Administrators
Association (NASAA), his e-mail address, or the erroneous idea that he did not
disclose his involvement with this father’s disbarment. In December 2017, the
Board received a letter from Ms. Mirko from the General Counsel for NASAA.
The Board then, without issuing a hearing for Solon to address the NASAA letter,
communicated this information directly to the Court.
The Court of Appeals, without issuing a hearing to Solon to address these
issues, published an opinion that is based on information that is simply not true.
Had Solon been given the opportunity to be heard on these issues, as in the case
with the District of Columbia’s character committee and Alabama’s character
committee, he would have been able to explain the misunderstanding revolving
around these concerns. But he never had an opportunity to explain or defend. As a
result, the Court of Appeals denied Solon’s application and published information
that is flatly incorrect, even misquoting the affidavit from Ms. Mirko in the process.

25

This is an extreme Due Process violation. This Court should rule that by
denying Solon an opportunity be heard on issues the Board used to deny him
admission, his Due Process rights were violated. This Court should also hold that a
provision must be in place in Maryland’s character and fitness process for an
applicant to be heard on the specific issues it intends to use to deny the applicant
admission. Anything less is unconstitutional.
IV.

The Board violated Solon’s Due Process rights by sitting on his
application for nearly four years without reason or explanation.
This Court has held that any state “permitting a delay without limit is

unconstitutional. Riley v. Nat’l Fed. of the Blind, 487 U.S. 781, 783 (1988). The
Board took nearly three years to make a decision on Solon’s application. They took
longer to review Solon’s application for admission than it took for him to graduate
law school. And gave no explanation for taking this long. This is unconstitutional.
As it stands today, the Board is free to delay any applicant admission in
perpetuity. The Board is free to place a life on hold without any cause or reason.
The Board later explained that Solon’s application was held open for him to
supplement the record. This was not true. Solon supplemented the record with his
credit report 30 days after the request. The Board proceeded to hold his application
open for another 3.5 years. This is unconstitutional.
Solon asks this Court to rule that the delay was unconstitutional and require
Maryland to have a provision, like that of Alabama, which states that if an
applicant’s application is not decided within a specific amount of time, due to no

26

fault of the applicant, the applicant will be admitted. Anything less is
unconstitutional.
CONCLUSION
As it stands today, the character fitness test is, as this Court once aptly
defined it, “a vague qualification, which can be easily adapted to fit personal views
and predilections.” Konigsberg, 353 U.S. 263. The test has never been scrutinized
and challenged. This Court now stands in a position to address this “dangerous
instrument” and set a standard whereby States will be made to tighten its character
fitness test by removing the subjective standards that are currently in place.
Maryland denied an applicant the right to practice law on unconstitutional
grounds. This happened because of there is a flaw in Maryland’s law governing the
right and/or privilege to practice law in the State. This Court can correct the flaw.
Solon petitions this Court to accept this case and decide the merits.

RespectfulJ^subpaitted,
""

_^^~~~--Sel©n-Pliillips

Petitioner Pro Se
4801 Bartletts Vision Drive
Bowie, MD 20720
202-329-1799
solonesq@gmail.com
December 8, 2020

27

